APPENDIX A: APPENDIX OF AMICI CURIAE1
Steven C. Gabaeff, MD, FAAEM, FACEP,
AMAAFS, is a physician specializing in clinical forensic medicine. For more than thirty years, Dr. Gabaeff
was board-certified in emergency medicine and practiced in a hospital setting. He has taught as an Assistant Clinical Professor of Emergency Medicine in the
residency program of the University of California, San
Diego and at the Long Beach VA hospital. He is an Associate Member of the American Academy of Forensic
Science, and since 2008 has been appointed by a committee of Los Angeles County Superior Court Judges
to the Panel of Expert Witnesses to provide expertise
to attorneys prosecuting and defending criminal cases.
Dr. Gabaeff has authored scholarly articles in his field
and has consulted on more than 4,000 criminal or dependency cases involving allegations of child abuse.
Charles J. Hyman, MD, FAAP, is a retired Clinical Professor of Pediatrics and a board-certified pediatrician of more than 50 years’ experience. He founded
and for five years led the child abuse team at Loma
Linda (CA) Children's Hospital. For the last 20 years,
he has been involved in evaluating infant injuries with
a specific interest in unexplained fractures. He has
evaluated approximately 360 cases involving alleged
child abuse. He has qualified as an expert or submitted
expert reports in approximately 36 states and has consulted on cases in Canada, England, Scotland, Ireland,
Australia, New Zealand, and Israel. He has been consulted in federal cases, cases with the U.S. military
and cases with various Innocence Projects.
Institutions are listed for affiliation purposes only. All signatories are participating in their individual capacity, not as representatives of their institutions.
1

Darinka Mileusnic-Polchan, M.D., Ph.D., is the
Chief Medical Examiner for Anderson and Knox Counties, Tennessee, and the Medical Director of the Knox
County Regional Forensic Center in Knoxville. Dr.
Mileusnic is board certified in anatomic and forensic
pathology and has a doctoral degree in neuroscience.
She is a Clinical Associate Professor of Pathology at
the University of Tennessee Medical Center, a member
of the Tennessee Medical Examiner Advisory Council,
and has testified over 100 times in state and federal
court as an expert witness.
Joseph M. Scheller, MD, is a physician in private
practice in Baltimore, board-certified in the fields of
pediatrics, child neurology, and neuroimaging. He
spent more than fifteen years as a child neurologist at
Children's National Medical Center and was an associate professor of pediatrics at both George Washington University and the University of Maryland Hospital. He has testified as an expert more than 100 times.
Kirk L. Thibault, Ph.D, D-IBFES, is a biomechanical engineer from Berwyn, PA with extensive research and forensic analysis experience in the field of
human injury biomechanics and, specifically, head injury biomechanics. He is a Diplomate of the International Board of Forensic Engineering Sciences and
President of a private consulting firm, Thibault Scientific, LLC. Dr. Thibault has testified in state and federal court in the US and the UK, in both civil and criminal matters related to human injury biomechanics.
Edward N. Willey, MD, is a licensed physician
and a pathologist. He is a former Medical Examiner.
He has practiced in consultation forensic medicine fulltime for more than 35 years. He has reported on more
than 5,000 cases. He has without exception qualified

as an expert in many criminal trials. He is familiar
with both flawed and continually changing forensic
science applications to criminal cases.
Dr. Karl E. Williams, MD, MPH, has been the
Chief Medical Examiner of the Office of the Medical
Examiner of Allegheny County (Pittsburgh, PA) since
2007. He is board-certified in both forensic pathology
and in anatomic and clinical pathology. In addition to
his medical training, Dr. Williams holds a master’s degree in Occupational/Environmental Health. He has
over forty years’ experience in the practice of pathology, forensic pathology, and laboratory medicine.
Michael Weinraub, MD, F.A.A.P., is a member
of the American Academy of Pediatrics. He is a pediatrician with over 40 years of experience. He is also a
forensic pediatrician who has testified in over 35 criminal trials in eleven states and many counties in California. He is familiar with the changing science in the
area of child abuse pediatrics.

